Annual Report, “Federal Information Security Management Act: Fiscal Year 2011
Evaluation” (IG-12-002, October 17, 2011)

This annual report, submitted as a memorandum from the Inspector General to the NASA
Administrator, provides the Office of Management and Budget (OMB) with our
independent assessment of NASA’s information technology (IT) security posture. For
FY 2011, we adopted a risk-based approach in which we selected high- and moderate-
impact non-national security Agency systems for review. We examined 25 systems that
included systems from all 10 NASA Centers, NASA Headquarters, and the NASA Shared
Services Center.

Although our audit work identifies challenges to and weaknesses in NASA’s IT security
program, we believe that the Agency is steadily working to improve its overall IT security
posture.

Our report to OMB addressed the 11 required areas of review for FY 2011 Federal
Information Security Management Act (FISMA) reporting:
   •   Risk Management
   •   Configuration Management
   •   Incident Response and Reporting
   •   Security Training
   •   Plan of Action and Milestones (POA&M)
   •   Remote Access Management
   •   Identity and Access Management
   •   Continuous Monitoring Management
   •   Contingency Planning
   •   Contractor Systems
   •   Security Capital Planning

Overall, the Agency established and is maintaining a program for each of the 11 areas
listed above. However, the Agency’s programs for risk management, configuration
monitoring management, and POA&M need significant improvements as they do not
include all required attributes identified by the Department of Homeland Security.

OMB’s Fiscal Year 2011 Report to Congress on the Implementation of The Federal
Information Security Management Act of 2002 includes information from our report.
However, as an“Intra-Agency Memorandum,” our report is considered exempt from
release under the Freedom of Information Act (FOIA); it also contains NASA Information
Technology/Internal Systems Data that is not routinely released under FOIA. To submit
a FOIA request, see the online guide.
